             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


      JOB INFORMATION USED IN THE
   SOCIAL SECURITY ADMINISTRATION’S
DISABILITY CLAIMS ADJUDICATION PROCESS

     November 2010    A-01-10-21024




 MANAGEMENT
ADVISORY REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      November 30, 2010                                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Job Information Used in the Social Security Administration’s Disability Claims
           Adjudication Process (A-01-10-21024)


           OBJECTIVE
           The objective of our review was to assess the Social Security Administration's (SSA)
           plans for developing an occupational information system (OIS) designed specifically for
           its disability adjudication process.

           BACKGROUND
           SSA provides Disability Insurance and Supplemental Security Income disability benefits
           to eligible individuals under Titles II and XVI of the Social Security Act (Act). 1 An adult
           is considered disabled under the Act if he or she is unable to engage in substantial
           gainful activity (SGA) because of a medically determinable physical or mental
           impairment that can be expected to result in death or has lasted, or can be expected to
           last, for a continuous period of not less than 12 months.2

           An individual shall be determined to be under a disability only if his physical or mental
           impairment(s) are so severe that he is not able to do his previous work. Further, he
           cannot, considering his age, education, and work experience, engage in any other kind
           of SGA that exists in the national economy, regardless of whether such work exists in
           the immediate area in which he lives, a specific job vacancy exists for him, or he would
           be hired if he applied. 3


           1
               The Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
           2
            The Act §§ 216(i)(1), 223(d)(1), and 1614(a)(3), 42 U.S.C. §§ 416(i)(1), 423(d)(1), and 1382c(a)(3).
           See also 20 C.F.R. §§ 404.1505 and 416.905. These sections of the Act also provide a separate
           definition of blindness for adults.
           3
             “Work which exists in the national economy” means work that exists in significant numbers either in the
           region where such individual lives or in several regions of the country. The Act §§ 223(d)(2)(A) and
           1614 (a)(3)(B), 42 U.S.C. §§ 423(d)(2)(A) and 1382c(a)(3)(B).
Page 2 - The Commissioner


SSA has a five-step sequential evaluation process for evaluating disability for adults,
which follows the definition of disability in the Act. 4 (See Appendix C for more
information.) SSA requires occupational information to determine whether an
individual’s impairment prevents the individual from doing not only his or her past work,
but also any work in the national economy. Hence, for many claims, the Agency’s
sequential evaluation process relies, fundamentally, on a comparison between what a
person can do despite the effects of an impairment 5 and what work requires. 6

Following a series of judicial and congressional challenges in the early 1960s,7 SSA
began using the Dictionary of Occupational Titles (DOT), 8 among other things, to
evaluate adult disability claims and has done so ever since. 9 SSA uses the
occupational descriptions in the DOT to determine whether a claimant can do his or her
past work as it is usually performed in the national economy or to find other occupations
he or she could do based on his or her medical-vocational profile. The Agency used
occupational information in over 60 percent of all initial and reconsideration disability
determinations in Calendar Years 2007 through 2009. (See Appendix C for additional
information on the number of claims in which occupational information was used in the
determination.)

The Department of Labor (DoL) initially developed the DOT in 1939, and it contains
descriptions of thousands of occupational titles. Trained occupational analysts gathered
this information by visiting work sites, interviewing job incumbents, and observing them
at work. DoL instructed the analysts to follow standardized procedures when observing
and interviewing job incumbents and creating descriptions using a common format.

While minor revisions were made in 1991, the DOT’s last major revision was in 1977,
and DoL has no plans to update it again—even though the jobs that exist in the national




4
    20 C.F.R. §§ 404.1520 and 416.920.
5
    20 CFR §§ 404.1508, 404.1511 and 416.908, 416.911(a)(1).
6
    20 CFR §§ 404.1520 and 416.920.
7
 See, for example, Kerner v. Fleming, 283 F.2d 916 (2nd Circuit, 1960) and Rinalidi v. Ribicoff,
              nd
305 F.2d548 (2 Circuit, 1962) and Harrison Subcommittee Report, Preliminary Report to the Committee
on Ways and Means (U.S. House of Representatives, 1960), pp. 17-20.
8
 See U.S. Department of Labor, Dictionary of Occupational Titles, Fourth Edition, Revised 1991,
available at: http://www.oalj.dol.gov/libdot.htm.
9
 The Agency also uses vocational experts and vocational specialists as sources of occupational
evidence in certain cases.
Page 3 - The Commissioner


economy have significantly changed since then. 10 For example, such jobs as Web
designer did not exist until after the 1970s. Conversely, some common jobs in the
1970s have dramatically declined, such as gas station attendants responsible for
pumping gas—who have been replaced by self-service gas stations. 11 DoL has
replaced the DOT with the Occupational Information Network (O*NET). 12 While O*NET
contains current information on occupations (including Web designer and gas station
attendants), it does not provide the data the Agency needs to adjudicate disability
claims. SSA evaluated O*NET and found that it was not suited to disability evaluation.

Some stakeholders consider SSA’s initiative to design and implement its own OIS to be
the most important policy matter addressed by SSA in more than 30 years. The
Commissioner of Social Security, speaking at the National Association of Disability
Representatives’ Social Security Law Conference in April 2010, stated that this project
is estimated to take 4 years and cost about $100 million. 13

To conduct this review, we attended public meetings on the OIS, interviewed SSA staff,
and gathered and reviewed information on the Agency’s efforts to develop an OIS
designed specifically for its disability adjudication process.

RESULTS OF REVIEW
Based on information available as of July 2010, SSA’s strategy to develop an OIS
designed specifically for its disability adjudication process appears reasonable. The
DOT no longer represents all jobs in the national economy because it has not been
updated in almost 20 years. Additionally, neither the DOT nor O*NET was designed to
be used for SSA’s disability adjudication process.

The Agency researched these issues—determined that available occupational
information systems did not meet its requirements—and decided to create a new OIS
tailored specifically for use in its disability programs, rather than modify the DOT or
O*NET systems. SSA determined that modifying O*NET would require fundamentally
changing its underlying organization, identifying elements required for disability


10
   SSA, Occupational Information Development Advisory Panel, Content Model and Classification
Recommendations for the Social Security Administration Occupational Information System, p. 21—
available at:
http://www.socialsecurity.gov/oidap/Documents/Occupational%20Information%20Development%20Advis
ory%20Panel.pdf.
11
  In Oregon and New Jersey, by State law, gas stations must use attendants exclusively to pump gas for
customers. Failure to do so can result in a monetary penalty for the gas station owner, the attendant, and
the customer.
12
     Id., p. 9.
13
   SSA stated the project timeframe and cost estimates mentioned by the Commissioner were preliminary.
Once the Agency completes a feasibility study in Fiscal Year 2011, it will have a more accurate estimate
of the timeframes and costs for the project.
Page 4 - The Commissioner


examiners to make decisions, testing of those elements, developing an instrument to
conduct data collection, and validating results—all steps required in creating a new OIS.

SSA formed an advisory panel for professional advice in developing an OIS. The panel
delivered its recommendations in September 2009 and concurred with the Agency’s
need to create a new OIS rather than update the DOT or modify the O*NET. As the
OIS project transitioned into the research and development phase, SSA requested
further advice and asked the panel to review reports that may affect or inform its work
on the OIS. In June 2010, the advisory panel issued its findings after review of the
National Academy of Sciences (NAS) report on O*NET. Additionally, SSA

•     formed an internal cross-component workgroup;
•     is coordinating its efforts with other Federal agencies;
•     plans to conduct studies on the best methods for collecting, aggregating, and using
      vocational information in its disability adjudication process;
•     is conducting outreach to stakeholders; and
•     plans to incorporate suggestions and feedback from the advisory panel and other
      stakeholders.

THE OCCUPATIONAL INFORMATION DEVELOPMENT ADVISORY PANEL

To begin developing an OIS, the Commissioner of Social Security established the
Occupational Information Development Advisory Panel (OIDAP) under the provisions of
the Federal Advisory Committee Act (FACA) in December 2008. 14 (See Appendix D for
OIDAP’s Charter.) OIDAP’s mission is to provide independent advice and
recommendations on plans and activities to replace the DOT used in SSA’s disability
determination process. Advice and recommendations relate to SSA’s disability
programs in the following areas:

•     medical and vocational analysis of disability claims;
•     occupational analysis, including definitions, rating and capture of physical and
      mental/cognitive demands of work, and other occupational information critical to
      SSA’s disability programs;
•     data collection;
•     use of occupational information in SSA’s disability programs; and
•     any other area(s) that would enable SSA to develop an occupational information
      system suited to its disability programs and improve the medical-vocational
      adjudication policies and processes. 15

14
  In accordance with FACA and other applicable laws, the OIDAP meetings are open to the public; due
notice of its meetings are published in the Federal Register; and meetings are conducted as required by
applicable regulations, guidelines, and laws.
15
     For more information on the OIDAP, see http://www.socialsecurity.gov/oidap/.
Page 5 - The Commissioner


The panel is composed of not more than 12 members, including

•    members of academia recognized as experts in relevant subject areas, such as
     occupational analysis, vocational assessment, and physical and occupational
     rehabilitation;
•    professional experts in relevant subject areas, such as vocational rehabilitation,
     forensic vocational assessment, and disability insurance programs;
•    medical professionals with experience in relevant subject areas, such as
     occupational or physical rehabilitation medicine, psychiatry or psychology, and
     physical or occupational therapy;
•    professional experts who represent or advocate on behalf of disabled claimants; and
•    an Agency employee who has expertise in SSA’s disability program policies,
     processes, and systems.

On September 30, 2009, OIDAP issued a report, Content Model and Classification
Recommendations for the Social Security Administration Occupational Information
System. The report included seven general recommendations for the content model
and classification of a new OIS designed for SSA’s needs. For example, OIDAP
concluded that a new OIS needs to be created to replace the DOT for SSA’s disability
adjudication system, and provided a list of elements that should be included in the new
OIS.

In November 2010, OIDAP agreed on an additional recommendation for SSA to develop
and make public an overarching project plan and timeline and a fully articulated
research plan. (See Appendix E for a list of the recommendations and Appendix F for a
Fact Sheet prepared by OIDAP.)

NATIONAL ACADEMY OF SCIENCES’ REVIEW OF THE OCCUPATIONAL
INFORMATION NETWORK

In 2008, DoL requested that NAS convene an expert panel to review O*NET and
consider its future direction. The panel completed its review and published its report in
May 2010. 16 The report included a chapter on disability determination and SSA’s
occupational information needs. The NAS panel also recommended SSA and DoL
create an interagency task force to study the viability of potential modifications of
O*NET to accommodate SSA’s needs with regard to disability determination.

SSA asked OIDAP to review NAS’ report for relevance and lessons learned useful to
the Agency’s development of an OIS. In June 2010, the panel submitted its findings to
the Agency. Generally, OIDAP found that O*NET in its current form is not suitable for
disability adjudication. (See Appendix G for more information.)


16
 NAS, A Database for a Changing Economy: Review of the Occupational Information Network (O*NET),
May 2010. The report can be found at http://www.nap.edu/catalog/12814.html.
Page 6 - The Commissioner


THE SOCIAL SECURITY ADMINISTRATION’S OCCUPATIONAL INFORMATION
DEVELOPMENT PROJECT

SSA has put much effort into developing an OIS and established the Office of
Vocational Resources Development to oversee the project. The Agency is developing
this system using information obtained from research, OIDAP, stakeholders, and other
Federal agencies. Additionally, SSA formed an internal workgroup that began meeting
in October 2008 and included representatives from many SSA components. The
workgroup members provide advice and consultation to SSA’s Occupational Information
Development staff and briefed OIDAP on SSA’s programs.

                     SSA has been communicating with DoL on OIS issues. SSA met
Coordination         with DoL’s Bureau of Labor Statistics in May 2010 to obtain advice on
with Other           how to access, or get access to, entities to gather occupational data.
Agencies             SSA also held meetings in April, June, and July 2010 with DoL’s
                     Employment and Training Administration to discuss the status of
O*NET and what SSA is doing to develop an OIS. Additionally, in July 2010, SSA met
with the Census Bureau within the Department of Commerce to obtain a clear
understanding of the Census Bureau’s American Community Survey (ACS). SSA is
interested in reviewing ACS employment data to more clearly identify the type and
extent of employment information reported by ACS respondents and to assess the
potential feasibility and utility of applying this information as a part of SSA’s OIS
sampling methodology. The Agency expects to arrange reviews of these data in the
near future.

SSA has also initiated contacts with officials at the United Nations-International Labor
Organization, European Union, United Kingdom, Canada, Australia, and New Zealand.
Some of these countries use the DOT, but they do not appear to have an OIS
applicable to SSA’s needs or uses. SSA is conducting follow-up contacts to obtain
further information and expected to issue a final report in late 2010.

Studies           SSA is conducting studies to determine the best methods for collecting,
                  aggregating, and using vocational information in its disability
adjudication process. The Agency is performing an Occupational and Medical-
Vocational Study to determine which occupations to review first when the Agency
begins conducting job analyses. As a part of this study, SSA staff is reviewing
5,000 cases to determine the most common jobs reported by claimants for their past
work and the most common occupations cited in medical-vocational denials by
adjudicators. SSA staff will also determine the most commonly occurring functional
limitations and the most commonly used medical-vocational rules. This effort should
take several more months to complete.

SSA has also developed Requests for Proposal for contractors to conduct studies in the
following areas.
•   Usability and data quality of the proposed data elements for the OIS – Through this
    study, SSA would obtain expert user feedback from SSA disability adjudicators and
Page 7 - The Commissioner


     reviewers on the data elements as well as selected measurements and scales that
     may be useful in SSA’s disability adjudicative process. For the purpose of this
     study, a test instrument will be created to provide a means by which SSA can obtain
     this expert user feedback.
•    Development of a business process for conducting job analysis – Job analysis is
     performed by a variety of professionals (for example, vocational rehabilitation
     counselors, physical and occupational therapists, and human resource
     professionals). Each type of professional approaches job analysis differently. After
     benchmarking and thoroughly researching these various methods, the contractor will
     make recommendations on how SSA should perform job analysis—including the
     development of processes; how to operationalize; and training, certification, and
     recruitment of job analysts.

Once these initial studies are completed, SSA plans to conduct a feasibility study in
2011. After that, the Agency will be able to estimate the project’s timeframes and costs.

In response to a recommendation made by OIDAP, SSA plans to develop internal
expertise by hiring individuals with specialized skill sets in areas crucial to effective work
analysis. These individuals will also assist as the Agency continues to design studies in
the future.

Outreach          SSA requested comments on OIDAP’s recommendations in three
                  separate Federal Register notices: The first notice was issued on
November 19, 2009, and two more notices extended the comment period to
June 30, 2010. 17

SSA staff and OIDAP members have presented at conferences to provide update and
status information to stakeholders and interested organizations. Topics in these
presentations included OIDAP’s recommendations, overall project activities, timelines,
milestones, and next steps. These outreach efforts also helped the Agency solicit
feedback on the project. OIDAP will also prepare fact sheets to address the most
common questions and concerns expressed in public comments.

Suggestions         SSA has received suggestions and feedback from the public and
and Feedback        different organizations, such as the National Association of Disability
                    Examiners, National Council of Disability Determination Directors,
National Organization of Social Security Claimants’ Representatives (NOSSCR), and
International Association of Rehabilitation Professionals (IARP). 18

Some feedback is positive. For example, IARP thanked OIDAP and SSA staffs for their
hard work, vision, and openness to stakeholder opinions. IARP also stated, it

17
  74 Fed. Reg. 60011 (November 19, 2009); 75 Fed. Reg. 10545 (March 8, 2010); 75 Fed. Reg. 23834
(May 4, 2010).
18
 Public submissions in response to the Agency’s requests for comments can be found at
www.regulations.gov.
Page 8 - The Commissioner


“. . .concurs with the seven general recommendations made by the OIDAP to SSA in
their report.” Additionally, it “. . .concurs that SSA requires a new occupational
information system to complete its work; that the DOT could not reasonably be updated
based on the numerous flaws in the DOT’s original development. . .O*NET cannot be
used for disability determinations in its present form—a major overhaul would be
needed to make O*NET useable in disability-related cases.”

In contrast, some feedback is negative, for example, an attorney who also helped write
comments submitted by NOSSCR states, “. . .nothing in the Panel’s report convinces
me that a completely new occupational information system is necessary. I believe that
SSA’s purpose would be better served by updating and revising the DOT, or by making
changes to the O*NET which would be required for disability adjudication purposes.”

CONCLUSION
Based on the information available as of July 2010, SSA’s strategy to develop an OIS
designed specifically for its disability adjudication process appears reasonable. SSA
researched this issue and determined that available occupational information systems
do not meet the Agency’s requirements and would require validation and extensive
changes to do so. SSA established an advisory panel, OIDAP, for expert advice. After
studying the issue and reviewing SSA’s data and legal requirements, OIDAP concurred
that SSA needed to create a new OIS, tailored specifically for use in its disability
programs. The Agency continues to keep other Federal agencies abreast of current
and future activities, and plans to incorporate suggestions and feedback from the
advisory panel and other stakeholders, where appropriate.

Because the project to build a new OIS will take several years, we plan to conduct
future reviews to ensure it is developed efficiently and will meet the Agency’s needs.
We will assess whether SSA continues to solicit and incorporate feedback from all
stakeholders in the disability claims process.

AGENCY COMMENTS
SSA appreciated our recognition of its efforts toward developing an OIS. See
Appendix H for the Agency’s comments.




                                                Patrick P. O’Carroll, Jr.
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – The Social Security Administration’s Process for Evaluating Disability in
             Adults

APPENDIX D – Occupational Information Development Advisory Panel Charter

APPENDIX E – Recommendations from the October 2009 Occupational Information
             Development Advisory Panel Report to the Social Security
             Administration

APPENDIX F – Occupational Information Development Advisory Panel Fact Sheet

APPENDIX G – Occupational Information Development Advisory Panel’s Review of the
             National Academy of Sciences’ Report on the Occupational Information
             Network

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
ACS      Census Bureau’s American Community Survey
Act      Social Security Act
C.F.R.   Code of Federal Regulations
DoL      Department of Labor
DOT      Dictionary of Occupational Titles
FACA     Federal Advisory Committee Act
IARP     International Association of Rehabilitation Professionals
NAS      National Academy of Sciences
NOSSCR   National Organization of Social Security Claimants’
         Representatives
O*NET    Occupational Information Network
OIDAP    Occupational Information Development Advisory Panel
OIS      Occupational Information System
RFC      Residual Functional Capacity
SGA      Substantial Gainful Activity
SSA      Social Security Administration
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
To achieve our objective, we:

•   Reviewed the Social Security Act and the Social Security Administration’s (SSA)
    regulations, rules, policies, and procedures on disability case processing.

•   Reviewed the Occupational Information Development Advisory Panel’s (OIDAP)
    reports dated September 30, 2009 and June 22, 2010.

•   Reviewed the National Academy of Sciences’ report, A Database for a Changing
    Economy: Review of the Occupational Information Network (O*NET), May 2010.

•   Attended OIDAP’s public meetings.

•   Reviewed public comments to OIDAP’s September 2009 report.

•   Met with staff from the Agency’s Office of Program Development and Research
    under the Deputy Commissioner for Retirement and Disability Policy.

•   Obtained information from SSA’s Office of Disability Programs on the number of
    disability claims in which occupational information was used in the determination.

We conducted our review from May through August 2010 in Boston, Massachusetts.
The entity reviewed was the Office of Program Development and Research under the
Deputy Commissioner for Retirement and Disability Policy. We conducted our review in
accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspections.
                                                                                      Appendix C

The Social Security Administration’s Process
for Evaluating Disability in Adults
Under the Social Security Act (Act), an adult is considered disabled if he or she is
unable to engage in substantial gainful activity (SGA) 1 by reason of a medically
determinable physical or mental impairment. Such impairment must be expected to
result in death or last, or be expected to last, for a continuous period of not less than
12 months.2

The Social Security Administration (SSA) has a five-step sequential process for
evaluating disability for adults, which follows the definition of disability in the Act
(Chart C-1). 3 The steps are followed in order. If a decision about disability can be
made at a step, the analysis stops, and a decision is made. If a decision about disability
cannot be made, the adjudicator proceeds to the next step.

At Step 1, SSA generally considers whether the claimant is performing SGA. If the
claimant is performing SGA, SSA finds that he or she is not disabled, regardless of the
severity of his or her impairment(s). If the claimant is not performing SGA, the claim is
sent for a determination of whether the claimant is disabled at a later step in the
process. When the claim is initially developed, the adjudicator generally requests all
evidence needed for consideration at Steps 2 through 5 of the sequential evaluation
process. The adjudication process stops when a decision regarding disability can be
made at any step. 4




1
  20 C.F.R. §§ 404.1572 and 416.972: SGA means the performance of significant physical and/or mental
activities in work for pay or profit, or in work of a type generally performed for pay or profit. As of 2010,
"countable earnings" of employees indicate SGA and "countable income" of self-employed individuals are
"substantial" if the amount averages more than $1,000 per month for non-blind individuals or $1,640 for
blind individuals. See also SSA, POMS, DI 10501.001 and 10501.015 B and C.
2
 The Act §§ 216(i)(1)(A) and 223(d)(1)(A), 42 U.S.C. §§ 416(i)(1)(A) and 423(d)(1)(A),
and § 1614(a)(3)(A), 42 U.S.C § 1382c(a)(3)(A). See also 20 C.F.R. §§ 404.1505 and 416.905.
3
    20 C.F.R. §§ 404.1520 and 416.920.
4
 If the claimant disagrees with the Agency’s initial disability determination, he or she can file an appeal
within 60 days from the date of notice of the determination. In most cases, there are three levels of
administrative review: (1) reconsideration by the disability determination services, (2) hearing by an
administrative law judge, and (3) request for review by the Appeals Council. If a claimant is still
dissatisfied after exhausting administrative remedies, he or she can appeal to the Federal courts.


                                                     C-1
At Step 2, SSA determines whether the claimant’s impairment—or combination of
impairments—is severe. 5 If the claimant does not have a severe medically
determinable impairment(s) that meets the duration requirement, the claim is denied. If
the claimant has a severe medically determinable impairment(s) that meets the duration
requirement, the Agency goes to Step 3 and looks to the Listing of Impairments. If the
severity of the impairment meets or medically equals a specific listing and meets the
duration requirement, the individual is determined to be disabled.

If the individual’s impairment does not meet or medically equal a listing, the Agency
goes to Step 4, and, if necessary, Step 5. At Step 4, the Agency determines whether
the claimant can perform any past relevant work, considering his or her residual
functional capacity (RFC) 6 and the physical and mental demands of the work he or she
did. If the claimant can perform past relevant work, the claim is denied. If the claimant
cannot perform past relevant work, SSA goes to Step 5. At this step, SSA determines
whether the claimant can perform any other work that exists in the national economy,
considering his or her RFC, age, education, and past work experience. If the claimant
can perform any other work, SSA finds him or her not disabled; if the claimant cannot
perform any other work, SSA finds him or her disabled. 7




5
 20 C.F.R. §§ 404.1520(c), 404.1521, 416.920(c) and 416.921: An impairment or combination of
impairments is not severe if it does not significantly limit an individual’s physical or mental ability to do
basic work activities. See also Social Security Ruling 85-28.
6
  20 C.F.R. §§ 404.1545 and 416.945: An individual’s impairment(s), and any related symptoms, such as
pain, may cause physical and mental limitations that affect what he or she can do in a work setting. The
RFC is the most the individual can still do despite these limitations. SSA assesses RFC based on all
relevant evidence in the case record.
7
 SSA has another sequential process for evaluating whether a disabled beneficiary’s disability continues.
20 C.F.R. §§ 404.1594(f) and 416.994(b)(5). This process generally requires a showing of medical
improvement related to the ability to work, but also includes steps like the ones in the initial sequential
evaluation process.


                                                      C-2
            Chart C-1: SSA’s Five-Step Sequential Evaluation
                   for Determining Disability for Adults


                             Step 1: SGA
      Yes       Is the claimant engaging in SGA?

                                 No

                      Step 2: Medical Severity
                Does the claimant have a severe
           No
                medically determinable impairment(s)
                that meets the duration requirement?

                                 Yes
                            Step 3: Listings
  Not
                Does the claimant have an                Yes   Disabled
Disabled
                impairment(s) that meets or equals a
                listing and meets the duration
                requirement?

                                 No
           No          Step 4: Previous Work
                Does the impairment(s) prevent the
                claimant from doing any past relevant
                work?

                                     Yes
                          Step 5: Other Work
                Does the impairment(s) prevent the
      No        claimant from doing any other work      Yes
                that exists in the national economy?




                               C-3
SSA relies on the Dictionary of Occupational Titles (DOT) to evaluate adult disability
claims. 8 The Agency uses the occupational descriptions in the DOT to determine
whether a claimant can do his or her past work as it is usually performed in the national
economy or to find other occupations he or she could do, based on his or her medical-
vocational profile. As shown in Table C-1, SSA used occupational information in over
60 percent of all initial and reconsideration disability determinations in Calendar Years
2007 through 2009. 9


       Table C-1: Initial and Reconsideration Determinations 2007 Through 2009

                           Occupational                  Occupational           Total Disability
                         Information Used            Information Not Used           Claims
         2007
    Allowances               393,153 (15%)                  407,671 (16%)          800,824 (31%)
    Denials                1,198,706 (46%)                  608,997 (23%)       1,807,703 (69%)
    Total                  1,591,859 (61%)                 1,016,668 (39%)     2,608,527 (100%)
         2008
    Allowances               429,627 (16%)                  426,272 (16%)          855,899 (32%)
    Denials                1,214,563 (45%)                  623,286 (23%)       1,837,849 (68%)
    Total                  1,644,190 (61%)                 1,049,558 (39%)     2,693,748 (100%)
         2009
    Allowances               487,352 (17%)                  450,207 (15%)          937,559 (32%)
    Denials                1,311,867 (45%)                  659,162 (23%)       1,971,029 (68%)
    Total                  1,799,219 (62%)                 1,109,369 (38%)     2,908,588 (100%)




8
 See U.S. Department of Labor, Dictionary of Occupational Titles, Fourth Edition, Revised 1991,
available at: http://www.oalj.dol.gov/libdot.htm.
9
    SSA, Office of Disability Programs, June 2010.


                                                     C-4
                                  Appendix D

Occupational Information Development
Advisory Panel Charter
D-1
D-3
                                                                                 Appendix E

Recommendations from the October 2009
Occupational Information Development
Advisory Panel Report to the Social Security
Administration
          OIDAP GENERAL RECOMMENDATIONS TO SSA – OCTOBER 2009
SUPPORTING THE NEED FOR A NEW OCCUPATIONAL INFORMATION SYSTEM (OIS) AND
     ON THE TECHNICAL, LEGAL, AND DATA REQUIREMENTS OF SUCH AN OIS
The creation of a new OIS [Occupational Information System] is needed to replace the Dictionary
of Occupational Titles (DOT) for SSA’s disability adjudication system. The OIS must include:
a) occupations aggregated at a level to support individualized disability assessment; b) a cross-
walk to the Standard Occupational Classification; c) precise occupationally-specific data; d) core
work activities; e) minimum levels of requirements needed to perform work; f) observable and
deconstructed measures; g) a manageable number of data elements; h) sampling methodology
capturing the full range of work; i) inter-rater agreement justifying data inference; j) data collection
of high quality data; k) valid, accurate, and reproducible data; l) whether core work activities could
be performed in alternative ways; and, m) terminology that is consistent with medical practice and
human function.
                       REGARDING DATA ELEMENTS FOR THE NEW OIS
An initial empirically derived work taxonomy should serve as a stimulus to develop instruments to
measure each dimension. Specific data elements for the development of the OIS include physical
and psychological abilities required to do work; they also include work activities, context, and extra
data elements for the content model.
                             FOR THE CLASSIFICATION OF THE OIS
Once a large database representative of all work in the national economy is available, SSA should
examine various job classification methods based on the common metric.
FOR THE CREATION OF INTERNAL AND EXTERNAL EXPERTISE FOR THE CREATION AND
                         MAINTENANCE OF THE OIS
Development of an independent internal unit at SSA staffed with experts addressing the work
analysis and person-side development and research needs for the creation and maintenance of
the OIS. Concurrent development and maintenance of online communities of researchers and
other professionals to inform the unit’s emerging and ongoing ideas, research, and methods.




                                                  E-1
                              FOR BASIC AND APPLIED RESEARCH
Research to develop and pilot work-side instruments and prototypes, perform a usability analysis,
and create a sampling plan. Exploratory, validation, and reliability research on the quantitative link
between person and job-side mental/cognitive, physical, or environmental attributes and demands
of jobs. Studies that focus on the consideration of the data collected vis-à-vis a work experience
analysis. Research on best methods and standards for measurement and scaling of person-side
variables. Applied research should focus on the user needs and comparative effects of new
instruments on SSA’s disability process and programs. Research should consider the inclusion of
additional person and job-side data elements that could foment independent research.
                             FOR MEASUREMENT CONSIDERATIONS
Identify, refine, or create scales for person and job-side dimensions, categories, and ratings that
are discrete and consider frequency, duration, or other needs. Person-side measurements should
be based on functional levels. These scales should have sufficient specificity to measure
person-side constructs. Use decomposed ratings of work to prevent holistic ratings of abstract
characteristics.
  FOR COMMUNICATION WITH USERS, THE PUBLIC, AND THE SCIENTIFIC COMMUNITY
Explore, develop, host, and monitor the creation and use of various forms of traditional and
emerging government and private media to inform or solicit input from various audiences about
SSA and Panel activities regarding the development of the OIS.

         OIDAP ADDITIONAL RECOMMENDATION TO SSA – NOVEMBER 2010
In keeping with its charge to provide independent advice and guidance on plans and activities to
replace the Dictionary of Occupational Titles (DOT) in disability adjudicative decisions and the
development of a new OIS that will help the Social Security Administration (SSA) meet its burden
of proof, is forensically defensible, reflects all work nationally and links residual functional capacity
to the requirements of work, the Panel strongly recommends that SSA:

1. Take the immediate step to develop an overarching project plan and timeline that specifies
SSA’s needs and objectives with regard to occupational information;
2. Develop a fully articulated research plan and associated processes that provide for the
coordination of necessary scientific research and allows for the incorporation of findings and
results, as appropriate;
3. Prepare and make available to the Panel the overall project plan, including the attendant
research plans, for advice and recommendation before further developmental activities for the OIS
proceed; and,
4. Make public the aforementioned project and research plans, thus delineating how SSA plans to
proceed in its efforts to develop said OIS.




                                                E-2
                                   Appendix F

Occupational Information Development
Advisory Panel Fact Sheet
F-1
F-2
F-3
                                                                               Appendix G

Occupational Information Development
Advisory Panel’s Review of the National
Academy of Sciences’ Report on the
Occupational Information Network
The Social Security Administration (SSA) asked the Occupational Information
Development Advisory Panel (OIDAP) to review the National Academy of Sciences
(NAS) report on the Occupational Information Network (O*NET) for relevance and
lessons learned useful to the Agency’s development of an Occupational Information
System (OIS). The OIDAP described O*NET as “…a general purpose database
addressing the needs of the primary users (e.g., workforce development, economic
development, career development, academic and policy research) for which it was
designed.”1

In recent comments received in reply to the OIDAP recommendations report, staff from
the National Center for O*NET Development stated, “The O*NET system was designed
for purposes related to the Employment and Training Administration’s mission and
developed to meet the modern needs of the public workforce system. The O*NET
system is a valid and reliable tool for people to use for career exploration, identification
of skill requirements and identification of areas of needing training. We acknowledge
that SSA’s requirement for legal defensibility is a very high standard for which neither
the O*NET system nor its predecessor, the Dictionary of Occupational Titles, was
designed.”2

In June 2010, the panel submitted its findings to the Agency:

1. NAS panel’s review of the use of the O*NET in disability adjudication reached the
   same conclusion as that of other national governmental bodies, OIDAP, and SSA in
   that the O*NET in its current form is not suitable for disability adjudication.
2. The NAS and OIDAP reports reached the common conclusion that significant
   changes would need to be made to the O*NET for it be suitable for disability
   adjudication.



1
 SSA, OIDAP, Findings Report: A Review of the National Academy of Sciences Report A Database for a
Changing Economy: Review of the Occupational Information Network (O*NET), June 28, 2010.
2
  Response to Federal Register Notice, Volume 75, No. 85: Request for Comments Regarding Social
Security Administration (Docket No. SSA-2010-0018), Occupational Information System, National Center
for O*NET Development.


                                                G-1
3. The O*NET report included a variety of important conclusions regarding
   occupational database maintenance that were similarly reached by OIDAP for the
   OIS’ development.
4. NAS staff deferred to OIDAP’s expertise for SSA’s occupational data needs.
5. The application of O*NET in SSA's disability adjudication process would require that
   SSA change its definition of "skills" as well as the way skills are assessed in SSA’s
   disability programs.
6. O*NET is a general purpose database addressing the needs of the primary users
   (for example, workforce development, economic development, career development,
   and academic and policy research) for which it was designed. Disability adjudication
   data needs and purposes are very different and not a subset of the general purpose
   database.
7. The O*NET report did not articulate the evaluation criteria the NAS panel may have
   used for its evaluation of O*NET.
8. The forensic defensibility of using O*NET data for disability adjudication was not
   addressed by the NAS panel. 3

Based on its review of the O*NET report, OIDAP reaffirmed its September 30, 2009
recommendations (shown in Appendix E) to SSA and advised the Agency should also
consider the following.

1. Cautious progress on the research and development agenda for the OIS until the
   scientific expertise unit recommended by OIDAP in its September report has been
   established.
2. Continued and expanded SSA and DoL cooperation on mutually beneficial areas,
   such as sampling and/or data collection. This cooperation may include examining
   how DoL has historically developed and used occupational data for its own
   labor-related adjudicative needs.
3. Collaboration with other Federal agencies, such as the Department of Defense,
   Office of Personnel Management, Rehabilitation Services Administration, and
   Census Bureau, regarding work analysis methods or other studies, surveys, or
   information of value to the development of the OIS.
4. Consideration of potential ethical and legal concerns that might arise from
   repurposing O*NET or by pursuing an update to the aging DOT framework for use in
   the disability adjudication process.




3
    “Forensic defensibility” refers to whether the information would withstand legal challenges.


                                                     G-2
                  Appendix H

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      November 9, 2010                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General Draft Report, “Job Information Used in the Social Security
           Administration’s Disability Claims Adjudication Process” (A-01-10-21024)—INFORMATION


           Thank you for the opportunity to review the subject report and for acknowledging our hard work
           in developing an occupational information system. We appreciate that you recognize our efforts
           thus far in conducting extensive research, enlisting support from a wide range of experts and
           stakeholders, and considering all options as we focus on this long-term project. Please see our
           attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




           [In addition to the information above, SSA provided technical comments which were
           incorporated in the report where appropriate.]
                                                                      Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-21024.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
